No. 20-6633

In the Supreme Court of the United States
EDUARDO DAVID VARGAS, Petitioner,
v.
THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY COURIER, ELECTRONIC MAIL, &
U.S. MAIL
I, Natalie Rodriguez, Legal Secretary, on behalf of Deputy Attorney General Kristen
Kinnaird Chenelia, Counsel of Record for Respondent and a member of the Bar of this
Court, hereby certify that on January 13, 2021, a copy of the BRIEF IN OPPOSITION in the
above-entitled case were mailed, in the internal mail collection system at the Office
of the Attorney General at 600 West Broadway, Suite 1800, P.O. Box 85266, San
Diego, CA 92186-5266, first class postage thereon fully prepaid, addressed as follows:

FEDEX to:

Russell Sheridan Babcock
1901 First Avenue, First Floor
San Diego, CA 92101

U.S. Mail to:

CALIFORNIA SUPREME COURT
350 MCALLISTER ST
SAN FRANCISCO CA 94102

(619) 531-0887
Attorney for Petitioner
Eduardo David Vargas

And by Electronic Mail to:
russbab@gmail.com

I further certify that all parties required to be served have been served.
Natalie Rodriguez, Legal Secretary

SD2020801970
82681751.docx

